No.

IN THE
SUPREME COURT OF THE UNITED STATES
KIRK COTTOM — PETITIONER
VS.
UNITED STATES OF AMERICA — RESPONDENT
PROOF OF SERVICE
I, Kirk Cottom, do declare that on, or about, this date, May 27, 2021, as required by Supreme
Court Rule 29 that I have served, by USPS Priority Mail, the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and a copy of the original - May 15, 2019 - PETITION FOR A WRIT
OF CERTIORARI to the Solicitor General’s office located at:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Avenue, N. W.
Washington, DC 20530-0001
I declare under penalty of perjury that the foregoing is true and correct. Executed on May 27,
2021.

Kirk Cottom

RECEIVED
JUN 2 - 2021

